IN THE
SUPREME COURT OF THE UNITED STATES

Marcus Tyler Sheffield - PETITIONER
vs.

FILED
AUG 132020

Lorie Davis, Director - RESPONDENT

OFFICE OF THE CLERK
SUPREME COURT. U.S.

ON PETITION FOR WRIT OF CERTIORARI TO
FIFTH CIRCUIT COURT OF APPEALS FOR THE UNITED STATES

Marcus Tyler Sheffield
TDCJ# 02034529
3809 State Hwy 98
New Boston, TX 75570

RECEIVED
AUG 2 1 2020

In the fifty years since Miranda, police have artfully sought ways to elicit confessions from
criminal suspects. To this end, police create situations to avoid the indicia of a custodial interrogation.
One of these situations is for police to ask a person to come to the police station to provide a witness
statement. Once at the police station a person who arrived believing that they were a witness discovers
through the course of interrogation that they are in fact a suspect. The police promise that the suspect is
“free to leave” at any time. Yet, that promise of freedom is often conditioned on providing the police with
something. Courts have ruled that the freedom to leave is one of several factors to consider when
determining if an interrogation that results in an admission was custodial. Police present a conditional
offer to a suspect that implies a threat that the interrogation will continue unless the condition is met.
Thus, the suspect is not truly free to leave without meeting that condition.
QUESTION PRESENTED
Whether the police detective’s assurance to Sheffield that he is free to leave on the condition that
he make a truthful statement would lead a reasonable person to believe that he was subject to a custodial
interrogation.

ii

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES
State v. Sheffield, No. 03-12-00669-CR, 2014 WL 7474211 (Tex.App.-Austin, Dec. 30, 2014)
State v. Sheffield, No. CR2011-575 (207th Dist. Ct., Comal Cnty., Tex. Oct. 21, 2015)
Sheffield v. State, No. 03-15-00627-CR, 2016 WL 6408005 (Tex.App.-Austin, Oct. 27, 2016)
Ex parte Sheffield, No. 87, 449-01 (Tex. Crim. App. Aug. 8, 2017)

iii

TABLE OF CONTENTS

n

Questions Presented
List of Parties

ra

Related Cases

ra

Index of Authorities

V

Opinions Below

1

Jurisdiction

1

Constitutional and Statutory Provisions Involved

1

Statement of the Case

2

Reason for Granting the Writ

3

Conclusion

7

Certificate of Service

8

Certificate of Filing

9
INDEX OF APPENDICES

APPENDIX A ORDER OF FIFTH CIRCUIT
APPENDIX B MEMORANDUM OPINION AND JUDGEMENT BY THE DISTRICT COURT
APPENDIX C U.S. 5™ CIRCUIT PETITION FOR REHEARING DENIAL
APPENDIX D U.S. 3rd COURT OF APPEALS SAN ANTONIO STATE INTERLOCUTORY APPEAL
APPENDIX E TRIAL COURT SUPPRESSION ORDER, FINDINGS OF FACT AND CONCLUSIONS OF LAW
iv

INDEX OF AUTHORITIES
Cases
California v. Beheler,
463 U.S. 292, 296 (1990)(per curiam)

3

Illinois v. Perkins,
496 U.S. 292, 296 (1990)

.3

Miranda v. Arizona,
384 U.S. 436 (1966)

2-4

Oregon v. Mathiason,
429 U.S. 492, 495 (1977)(per curiam)

3

Stansbury v. California,
511 U.S. 324, 325(19940

.3-4

Statutes
28 U.S.C., Section 1254(1)

1

Constitution
Fifth Amendment, U.S. Constitution

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Marcus Tyler Sheffield prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
The opinion of the United States Court of Appeals appears at Appendix A to the petition and is
unpublished.
The opinion of the United States district court appears at Appendix B to the petition and is
unpublished.
JURISDICTION
The date on which the United States Court of Appeals decided Sheffield’s case was April 9, 2020.
His petition for rehearing was denied on May 20,2020.
The jurisdiction of this Court is invoked under 28 U.S.C. Section 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due process of law; nor shall private property
be taken for public use, without just compensation.
STATEMENT OF THE CASE
In November 2011, Sheffield was charged by indictment with two counts of sexual abuse of a child

1

(ECF No. 23-5 at 12-13). Prior to trial, a suppression hearing was held to determine the admissibility of
statements Sheffield made to police admitting his guilt for the charged offenses. A police report and a
copy of Sheffield’s video-recorded interview were submitted as evidence at the hearing. On October 1,
2012, the trial court granted Sheffield’s motion to suppress and issued written findings of fact and
conclusions of law to support its ruling. (ECF No. 11-2 at 70, 112-16). The state filed an interlocutory
appeal arguing the trial court erred in finding a violation of Sheffield’s rights under Miranda v. Arizona,
384 U.S. 436 (1966), because Sheffield was not in custody at the time of his interview with police and
thus his interview did not rise to the level of a custodial interrogation. (ECF No. 9-9). In an opinion dated
December 30, 2014, the Third Court of Appeals agreed with the state, reversed the trial court’s order of
suppression, and remanded for further proceedings. State v. Sheffield, No. 03-12-00669-CR, 2014 WL
7474211 (Tex. App.-Austin, Dec. 30,2014, no pet.)(ECF No. 9-14).
A jury subsequently convicted Sheffield of both counts alleged in the indictment and assessed
punishment at ten years of imprisonment for each offense, with the sentences to run concurrently. State v.
Sheffield, No. CR2011-575 (207th Dist. Ct., Comal Cnty., Tex. Oct. 21, 2015)(ECF No. 11-2 at 200-05).
On appeal, Sheffield’s court-appointed counsel filed an uncontested Anders brief stating that the record
presented no arguably meritorious grounds for review. (ECF No. 11-19). Following an independent
review of the record, the court of appeals agreed with counsel that he appeal was frivolous and affirmed
the judgment of the trial court. Sheffield v. State, No. 03-15-00627-CR, 2016 WL 6408005 (Tex. App.Austin, Oct. 27, 2016, no pet.)(ECF No. 11-21). Sheffield did not attempt to appeal this decision by filing
a petition for discretionary review with the Texas Court of Criminal Appeals (TCCA).
Instead, Sheffield filed a state habeas corpus application challenging the constitutionality of his state
court conviction and sentence on August 8, 2017. Ex parte Sheffield, No. 87,449-01 (Tex. Crim. App.
Aug. 8, 2017)(ECF No. 11-31 at 23).

The state habeas application contained, inter alia, a claim that

Sheffield’s self-incriminating statements made to police were obtained unlawfully and should not have
been admitted at trial. The TCCA denied Sheffield’s state habeas application without written order on

2

January 24,2018 (ECF No. 11-26).
In his federal petition, Sheffield contends the admission of his self-incriminating statements to police
violated his Miranda rights. According to Sheffield, his confession is the result of a coercive custodial
interrogation wherein his request for an attorney was ignored.
REASONS FOR GRANTING THE PETITION
The Miranda Court held that a person questioned by law enforcement officers after being “taken into
custody or otherwise deprived of his freedom of action in any significant way” must first “be warned that
he has a right to remain silent, that any statement he does make may be used as evidence against him, and
that he has the right to the presence of an attorney, either retained or appointed.” 384 U.S., at 444.
Statements elicited in noncompliance with this rule may not be admitted for certain purposes in a criminal
trial. An officer’s obligation to administer Miranda warnings attaches, however, “only where there has
been such a restriction on a person’s freedom as to render him ‘in custody.’” Oregon v. Mathiason, 429
U.S. 492, 495 (1977)(per curiam); see also Illinois v. Perkins, 496 U.S. 292,296 (1990). In determining
whether an individual was in custody, a court must examine all of the circumstances surrounding the
interrogation, but “the ultimate inquiry is simply whether there [was] a ‘formal arrest or restraint on
freedom of movement’ of the degree associated with a formal arrest.” California v. Beheler, 463 U.S.
1121, 1125 (1983)(per curiam)(quoting Mathiason, supra, at 495).
Relying extensively on its prior decisions, this Court made in clear in Stansbury v. California, that
“the only relevant inquiry is how a reasonable man in the suspect’s position would have understood his
situation.”, and on that point Stansbury provides guidance in two passages:
*”Miranda warnings are required only where there has been such a restriction on a person’s
freedom as to render him ‘in custody.’” 511 U.S. 324
*”An officer’s knowledge or beliefs may bear upon the custody issue if they are conveyed, by
word or deed, to the individual being questioned.” 511 U.S. at 325
Acknowledging that no one fact is determinative, the relevant circumstances

3

surrounding the interrogation are as follows. (Location) On August 3, 2011, Detective Schroeder
of the New Braunfels Police Department met with Marcus Sheffield at Sheffield’s home where
the detective reasonably could have taken his statement, but instead the Detective asked that
Sheffield come to the police station. Although Sheffield voluntarily drove himself to the police
station, he did so believing he was a witness, not a suspect. (Amount of restraint on physical
movement) When Sheffield arrived at the police station he was placed in a locked room under
guard. He was not allowed to leave that room absent someone with a key granting him
permission. Sheffield’s movements were further restricted as evidence by not being allowed to
use the restroom without a police officer to escort and monitor him to and from and while inside
the restroom. (Length of interrogation) The interview lasted over an hour, during which
Sheffield provided Detective Schroeder with a statement that he was present on the night in
question and that he believed that his male acquaintance had sex with a girl who appeared to be
underage. (Accusatory Non-accusatory nature of the interview) The detective then raises the
accusatory nature of this “voluntary” interview by telling Sheffield that his version of events
differed from what the detective was told by others. Approximately forty minutes into the
interview, the detective played a video of a witness whose statement contradicted what Sheffield
just told the detective. After Sheffield was confronted with the video evidence, he asked
Detective Schroeder if he was a witness or a suspect. To which Detective Schroeder replied, that
he was both. (Accused requests an attorney) At this point Sheffield requests an attorney
stating, “As much as I want to continue this interview and to be honest, with my little knowledge
of specifically the law, I’m not sure that I want to continue this interview right now without an
attorney, just because I don’t know what the police department’s intentions are or the county’s in

4

terms of charges or whatnot and I believe that I need someone who can tell me what to do or not
to do.” (App. B at 6) Sheffield stated further that he did not, “know whether I’m going to be
looking at charges or not, and if that’s the case, then regardless of whether I’m being honest or
not.” At this point the detective interjects, “That’s what I’m telling you right now. I’m telling
you exactly what it is. I understand your hesitance on you not knowing if you want to continue or
not.” As the interview proceeded the detective told Sheffield that he had all the evidence he
needed and that “I know you’ve already been deceptive with me.” (App. B at 6) The detective
points to the “evidence jacket”, photos and witness video stating, “I've got everything. I've got it
all. You were the last piece of the puzzle. So I want you to be honest with me. [The prosecutor]
wants you to be honest because he's going to be watching this right now.” (Statement made by
police regarding the freedom to leave) At this point that Sheffield stated that he knew it was
the detective’s job to “put people away” and that although he wanted to be honest he didn’t want
to “nail his coffin shut”. The detective replied that his job is to find the evidence in the case and
give Sheffield the opportunity to tell the truth. Sheffield then wondered out loud if he was free to
leave the police station absent telling the truth asking, “If I'm honest with you will I be leaving
here today?” Detective Schroeder responded, “Yes you are. When you walked in here and I told
you, you can come in here and I'll let you walk out that door, you're dam right I am. That's my
word. But you got to tell me the truth. Tell me the truth and tell [the prosecutor] the truth. ”
{emphasis added) (App. B at 7) At this point in the interview Sheffield made a statement to
Detective Schroeder, providing admissions and answering additional questions.
Despite this Court’s clear guidance, the below court decided not to apply Stansbury. The
court noted that in this case, Detective Schroeder reiterated that Sheffield “can walk right out this

5

door at any time”, which moments later he did (App. B at 11). Based on this version of facts, the
court concluded that a reasonable person would believe he was free to leave. But the court’s
conclusion is flawed because Detective’s reassurance that Sheffield was free to leave occurred
after he made his admissions, not before it.
The issue before the Court is whether a “freedom to leave” that is conditioned on a
confession, is a factor that should be considered under Stansbury. As the Court held in
Stansbury, an interview that begins as non-custodial can become a custodial interrogation
warranting Miranda warnings if, after considering the totality of circumstances surrounding the
confession, a reasonable person would believe he was not free to leave. 511 U.S. at 326.
Detective Schroeder told Sheffield, “When you walked in here and I told you, you can come in
here and I’ll let you walk out that door, you’re dam right I am. That’s my word. But you got to
tell me the truth. Tell me the truth and tell [the prosecutor] the truth.” (App. B at 7) This
statement by the detective amounts to a threat that if Sheffield did not provide a truthful
statement that met the satisfaction of his inquisitor, he would not be allowed to “walk out that
door”. Under these conditions a reasonable person would not believe he was free to leave absent
a truthful confession. This is especially so, when considering the restrictive nature of the
interrogation.
A thorough assessment by this Court of the District Court’s independent review will not find
a single mention of the Detective’s conditional release, much less a consideration of this fact
(App. B at 10-11). That is, the below court failed to consider whether the conditional “freedom
to leave” affected how Sheffield viewed his situation. Thus, the Stansbury test is incomplete.

6

CONCLUSION
Miranda's familiar warnings have become part of our national lexicon, but this Court’s
revolutionary decision in Miranda v. Arizona only requires a government officer to communicate the
Miranda warnings to a suspect under specific circumstances. Unfortunately, this has meant that police
officers often do an end run around awarding suspects the Miranda protections. This troubling development
allows officers to take wide latitude in conducting interrogations in scenarios without formal restraint and
that are only nominally noncustodial to avoid Miranda's requirements. This is troubling given that
officers pressure, trick, and intimidate suspects to speak, and elicit false confessions, even in situations
where a person may not be in a physical environment like formal arrest. In this case Detective Schroeder
coerced a statement from Sheffield under a threat of continued interrogation.

Respectfully submitted,

Marcus Tyler Sheffield
TDCJ# 02034529
Telford Unit
3899 State Hwy 98
New Boston, TX 75570
Pro se Petitioner

7

